Supreme Court, U.S.
FILED

WAIVER

JAN 14 2021
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
Supreme Court Case No

20-6795

Alicia Marie Richards

v. Ryal W. Richards

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
111 Please enter my appearance as Counsel of Record for all respondents.
11] There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

I am a member of the Bar of the Supreme Court of the United States.

0 I am not presently a member of the Bar of this Court. Should a respone be requested, the response
will be filed by a B
Si
Date:
(Type or pririt) Nanie

Kevin E.RobinsOn
Mr.

Firm

0 Ms.

0 Mrs.

111 Miss

Law Officesiof Kevin E. Robinson

Address

970 W. 17th Street, Suite D

City & State
Phone

Santa Ana, California

714-245-0210

Zip
Email

92706

robinsonlawoffi'ce@yahoo.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

CC: Alicia Marie Richards, Pro Se

RECEIVED

JAN 2 5 2021
LERK
Of mg C
S
OFFICEE.
u
SUPREM CO RI U•

